NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                   OF
          BEEHIVE CREDIT UNION

             Report #OIG-11-07
               July 7, 2011




             William A. DeSarno
             Inspector General


                 Released by:




               James W. Hagen
          Assistant Inspector General
Table of Contents


 Section                                                                                                  Page


ACRONYMS AND ABBREVIATIONS ................................................................... ii

EXECUTIVE SUMMARY .......................................................................................1

INTRODUCTION AND BACKGROUND................................................................3

OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................6

RESULTS IN DETAIL............................................................................................8

    A. Why Beehive Credit Union Failed ...............................................................8

    B. Utah State Department of Financial Institutions and
       NCUA Supervision of Beehive Credit Union .............................................13

APPENDIX

    A. Management Response ...........................................................................16




                                                                                                                 i
Acronyms and Abbreviations

ALLL          Allowance for Loan and Lease Losses
Call Report   NCUA 5300 Call Reports
CTB           Construction Take Back
DFI           Department of Financial Institutions
DOR           Document of Resolution
FCU           Federal Credit Union
FCU Act       Federal Credit Union Act
FDIC          Federal Deposit Insurance Corporation
FISCU         Federally Insured State-Chartered Credit Union
FPR           Financial Performance Reports
MBL           Member Business Loan
MLR           Material Loss Review
MOU           Memorandum of Understanding
NCUSIF        National Credit Union Share Insurance Fund
NCUA          National Credit Union Administration
NWRP          Net Worth Restoration Plan
OIG           Office of Inspector General
OTS           Office of Thrift Supervision
RFE           Risk-Focused Examination
SSA           State Supervisory Authority




                                                               ii
Material Loss Review – Beehive Credit Union
OIG-11-07



Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) of
Beehive Credit Union (Beehive or the Credit Union). We reviewed Beehive to: (1)
determine the cause(s) of the Credit Union‟s failure and the resulting estimated
$27.6 million loss to the National Credit Union Share Insurance Fund (NCUSIF); (2)
assess NCUA‟s supervision of the Credit Union; and (3) make appropriate
recommendations to prevent future losses. To achieve these objectives, we
analyzed NCUA examination and supervision reports and related correspondence,
interviewed NCUA management and regional staff, reviewed NCUA guidance,
including regional policies and procedures, NCUA 5300 Call Reports (Call Report),
and NCUA Financial Performance Reports (FPR).

We determined Beehive Credit Union failed for the following reasons:

      Weak Management and Board Oversight

       Management did not effectively manage the risks, policies, operations, and
       financial position of Beehive, nor did they demonstrate an understanding of
       the risks inherent in their strategic decisions. In addition, both the Board of
       Directors (Board) and management lacked sufficient and responsive action to
       address repeat findings raised by examiners related to concentrations,
       Allowance for Loan and Lease Losses (ALLL) methodology, and asset
       quality. They remained too optimistic when the economy turned and did not
       actively or proactively address the serious economic issues developing
       nationally, and particularly those in Utah‟s real estate market.

      Inadequate Risk Management Practices

       A lack of risk management policies and practices allowed management to
       develop a high concentration of construction and lot loans, which led to
       material charge-offs when the economy turned and the real estate market
       deteriorated. Management did not effectively plan, manage, or control
       liquidity risk, and relied on high-cost nonmember deposits as well as two
       non-committed lines of credit for liquidity. In addition, management did not
       develop the appropriate policies and procedures to understand and respond
       to the overall declining financial health of Beehive, resulting from the rapid
       erosion of net worth due to operating losses, ALLL funding, and high net
       operating costs.

      Inaccurate Financial Reporting

       Management did not accurately report financial data on its Call Reports,
       Specifically, management used a flawed methodology to calculate and fund


                                                                                        1
Material Loss Review – Beehive Credit Union
OIG-11-07



        the ALLL and, as a result, management masked the true financial health of
        Beehive. This issue became critical when the economy and real estate
        market values began their steep decline. Additionally, management did not
        monitor delinquencies in a timely manner, which caused the ALLL calculation
        to be inaccurate. Finally, examiners consistently identified errors in the Credit
        Union‟s Call Reports and management did not take appropriate action to
        resolve the accounting practices that generated the errors.

       Supervisory Lapse

        We determined the Utah Division of Financial Institutions, the State
        Supervisory Authority (SSA), and NCUA did not conduct a supervisory
        contact for 32 months – from March 2006 to November 2008. Examiners
        explained that Beehive pursued a charter conversion to a mutual savings
        bank during that time, which, once complete, would have placed them under
        the supervision of the Office of Thrift Supervision (OTS) and the Federal
        Deposit Insurance Corporation (FDIC). NCUA and the SSA considered the
        Credit Union low risk based on historical Composite CAMEL 2 ratings1. We
        believe this 32-month supervisory lapse prevented examiners from detecting
        the deficiencies and curtailing the risky lending practices that eventually led to
        Beehive‟s insolvency. In November 2008, the NCUA adopted changes to its
        risk-based examination scheduling policy and now requires an annual
        examination or material on-site supervision for FISCU‟s with assets greater
        than $250 million, and allows for additional contact if warranted by risk
        profiles and negative trends. We believe this change is important and will
        prevent the supervision gap that occurred with Beehive.

We are making no formal recommendations as a result of the findings in this report.
However, as major causes, trends, and common characteristics of credit union
failures are identified in OIG Material Loss Reviews and recommendations are
presented, the OIG will communicate those to NCUA management for its
consideration. As resources allow, the OIG may also conduct more in-depth reviews
of specific aspects of the NCUA‟s supervision program, and make
recommendations, as warranted.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




1
 The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.



                                                                                                    2
Material Loss Review – Beehive Credit Union
OIG-11-07



Introduction and Background

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
authorized Moss Adams LLP to conduct a Material Loss Review (MLR) for Beehive
Credit Union (Beehive or the Credit Union), as required by Section 216 of the
Federal Credit Union Act (FCU Act), 12 U.S.C. §1790d(j). Beehive was a federally
insured state-chartered credit union (FISCU), headquartered in Salt Lake City, Utah.
Beehive was located in NCUA‟s Region V.

History of Beehive Credit Union

Chartered in 1954 to serve Utah state government employees, Beehive Credit
Union‟s membership expanded over the years, eventually growing to serve two Utah
counties and a number of select employee groups. As of June 30, 2010, Beehive
had 18,600 members with assets of more than $152 million. Beehive operated nine
branches with 61 full-time and nine part-time employees. At the time of failure,
Beehive‟s main lending products were speculative construction and real estate
development (lot) loans.

As a FISCU, Beehive was subject to State Supervisory Authority (SSA)
examinations performed by the Utah Department of Financial Institutions (DFI). We
determined, however, that the NCUA participated jointly on most of the examinations
of Beehive. In 2006, Beehive began the process to convert its charter from that of a
credit union to a mutual savings bank. During the period of time that the Office of
Thrift Supervision and the Federal Deposit Insurance Corporation reviewed
Beehive‟s application, we determined neither the Utah SSA nor the NCUA had
performed any supervisory contact. This lack of supervisory contact covered a
32 month period, from March 2006 to November 2008.

From 2004 to 2008, Beehive management allowed its real estate loan activity to
grow significantly. As a result, management created heavy concentrations in
construction and lot loans. In 2007 when the economic dislocation began,
management did not respond timely to the declining property values, which
eventually led to rising delinquencies and foreclosures, followed by declining net
worth.

The 2004 and 2005 examinations resulted in Composite CAMEL 2 ratings; however,
at the conclusion of the next onsite NCUA examination in September 2008,
Beehive‟s Composite CAMEL rating had deteriorated to a 3. By the end of 2009,
examiners had rated Beehive a Composite CAMEL 5 and determined the Credit
Union to be significantly undercapitalized. In April 2010, NCUA and Utah SSA
examiners issued a Memorandum of Understanding (MOU) to Beehive management
and in July of 2010, the NCUA issued a Preliminary Warning Letter to cease certain
lending activities in an effort to prevent further losses.




                                                                                     3
Material Loss Review – Beehive Credit Union
OIG-11-07



On December 14, 2010, the Utah DFI liquidated Beehive Credit Union and appointed
the NCUA as liquidating agent. Also on this date, the NCUA, as liquidating agent,
executed a Purchase & Assumption agreement transferring the assets, liabilities,
and shares to Security Service Federal Credit Union (Security Service) of San
Antonio, Texas. Security Service had $5.5 billion in assets and over 760 thousand
members as of June 2010. The NCUA estimated the loss to the National Credit
Union Share Insurance Fund (NCUSIF) at $27.6 million; however, NCUA will not
know the final cost until all assets are sold.

NCUA Examination Process

The NCUA uses a total analysis process that includes collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating CAMEL
components and reviewing qualitative and quantitative measures.

The NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union‟s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union‟s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner‟s review of
data includes structural analysis2, trend analysis3, reasonableness analysis4,
variable data analysis5, and qualitative data analysis6. Numerous ratios measuring a
variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.
Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the numbers
to determine the significance of the supporting ratios and trends. Furthermore, the
NCUA requires examiners to determine whether material negative trends exist;
ascertain the action needed to reverse unfavorable trends; and formulate, with credit

2
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
3
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
4
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
5
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
6
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union‟s current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.



                                                                                                                 4
Material Loss Review – Beehive Credit Union
OIG-11-07



union management, recommendations and plans to ensure implementation of these
actions.

Risk-Focused Examination Program

In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include both off-site and on-site work that
includes reviewing off-site monitoring tools and risk evaluation reports. The RFE
process includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks
may include: (a) reviewing the prior examination report to identify the credit union‟s
highest risk areas and areas that require examiner follow-up, and (b) analyzing Call
Reports and direction of the risks detected in the credit union‟s operation and on
management‟s demonstrated ability to manage those risks. A credit union‟s risk
profile may change between examinations. Therefore, the supervision process
encourages the examiner to identify those changes in profile through:

       Review of Call Reports;

       Communication with credit union staff; and

       Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board modified the risk-based examination
scheduling program, creating the Annual (12-Month) Examination Scheduling
Program to be implemented in three phases from 2009 through 2011.7 The NCUA
indicated these changes were necessary due to adverse economic conditions and
distress in the nation‟s entire financial structure, which placed credit unions at
greater risk of loss. The NCUA stated the Annual (12-Month) Examination
Scheduling Program would provide timelier, relevant, qualitative, and quantitative
data to recognize any sudden turn in a credit union‟s performance.

Supervision of Federally Insured State-Chartered Credit Unions

The NCUA‟s statutory authority and its guidelines indicate the NCUA has the legal
and fiduciary responsibility to ensure the safety of the NCUSIF. Federally insured
state-chartered credit unions receive the same amount of insurance coverage under
the NCUSIF as federally chartered credit unions. Therefore, FISCUs are subject to
the same review of risks as other credit unions. The examination of federally
insured state-chartered credit unions properly belongs to and is the primary

7
 On May 28, 2010, NCUA Instruction No. 5000.15 (Rev. 3) revised and further defined NCUA Instruction No.
5000.15 (Rev 2) regarding NCUA‟s Annual (12-Month) Examination Scheduling Program for all Federal Credit
Unions (FCU) as well as any Federally Insured State-Chartered Credit Union (FISCU) with assets greater than
$250 million. The Instruction indicated the minimum timeframe between examinations could be as low as 8-
months and the maximum could be as high as 23-months to ensure one examination every calendar year. .



                                                                                                              5
Material Loss Review – Beehive Credit Union
OIG-11-07



responsibility of SSAs. The FCU Act, §1781, §201(b)(1) (Insurance of member
accounts) states in part:

       “…examinations conducted by State regulatory agencies
       shall be utilized by the Board for such purposes to the
       maximum extent feasible.”

The two most common types of on-site FISCU reviews are an independent
insurance review and a joint examination/insurance review. In joint
examination/insurance reviews, both the NCUA and the SSA focus on risk issues
(including safety and soundness issues), while the state examiner focuses
additionally on regulatory concerns. However, during an independent insurance
review, NCUA examiners limit their role to the review and analysis of risks to the
NCUSIF only, rather than a complete examination of the FISCU.

NCUA examiners primarily monitor the financial condition and progress of FISCUs
by reviewing SSA examination reports, Call Reports, and FPRs. In reviewing SSA
reports, NCUA‟s concerns include whether:

      The SSA examiners adequately addressed material risks within the FISCUs;

      The credit union understands the seriousness of the risks; and

      An agreement or plan exists for resolving unacceptable risks in a timely
       manner.

Objectives, Scope, and Methodology

We performed this MLR for the OIG as required by section 216 of the FCU Act, 12
U.S.C. §1790d(j) for Beehive Credit Union. Section 216(j) of the FCU Act provides
the Inspector General must conduct a review when the NCUSIF has incurred a
material loss. For purposes of determining whether the fund has incurred a loss that
is “material”, the FCU Act deems a loss material if it exceeds the sum of:

      $25,000,000, and

      An amount equal to 10 percent of the total assets of the credit union at the
       time in which the NCUA Board initiated assistance under Section 208 or was
       appointed liquidating agent.

The objectives of the MLR were to:

      Determine the causes of the credit union‟s failure and any material loss to the
       NCUSIF;



                                                                                      6
Material Loss Review – Beehive Credit Union
OIG-11-07



      Assess NCUA supervision of the institution, including implementation of the
       Prompt Corrective Action (PCA) requirements of Section 208 of the FCU Act;
       and

      Make appropriate recommendations to prevent future losses.

To accomplish our review, we conducted fieldwork at the NCUA‟s Region V office in
Tempe, Arizona, and conducted interviews of NCUA and Utah DFI officials and
examiners. The scope of this review covers the period from June 2004 to June
2010.

To determine the cause(s) of Beehive‟s failure and assess the adequacy of the
NCUA‟s supervision, we:

      Prepared a chronology of examination scope and procedures, comments, and
       corrective actions;

      Reviewed exam files and Credit Union Board minutes;

      Reviewed external audit findings and follow-up procedures;

      Conducted interviews with NCUA and Utah DFI officials and examiners
       involved at various levels in the examination process;

      Reviewed policies and procedures included in examination files related to
       loan quality, investment quality, liquidity management, and earnings;

      Reviewed NCUA and regional rules, regulations, and guidelines; and

      Reviewed NCUA Call Reports, Financial Performance Reports, and
       supervision as it relates to Beehive.

We used computer-processed data from NCUA‟s Automated Integrated Regulatory
Examination Software and NCUA online systems. We did not test controls over
these systems. However, we relied on our analysis of information from management
reports, correspondence files, and interviews to corroborate data obtained from
these systems to support our audit conclusions.

We conducted this audit from December 2010 through July 2011 in accordance with
auditing standards generally accepted in the United States of America and included
such tests of internal controls as we considered necessary under the circumstances.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.


                                                                                   7
Material Loss Review – Beehive Credit Union
OIG-11-07



Results in Detail

We determined Beehive Credit Union‟s management and Board of Directors‟ weak
oversight and risk management policies, coupled with inaccurate financial reporting
related to delinquencies and reserves, contributed directly to the Credit Union‟s
failure. In addition, we concluded Utah SSA and NCUA examiners could have
mitigated the loss to the NCUSIF had they performed timelier supervisory contacts
and not allowed a 32-month gap in supervision to occur. We believe this supervisory
lapse may have prevented examiners from detecting the deficiencies and curtailing
the risky lending practices that eventually led to Beehive‟s insolvency.

A. Why Beehive Credit Union Failed

    Weak Management            We determined Beehive Credit Union failed because
    and Board Oversight        management did not effectively manage the risks,
                               policies, operations, and financial position of the credit
                               union, nor did they demonstrate an understanding of the
risks inherent in their strategic decisions. In addition, both the Board and
management lacked sufficient and responsive action to address repeat findings
raised by external auditors and examiners related to concentrations, Allowance for
Loan and Lease Losses (ALLL) methodology, and asset quality.

In addition, we found management made decisions related to operations and
spending that were not consistent or responsive to the challenges facing Beehive
and the local economy. From 2008 through 2009, not only was the economy
declining, but Beehive‟s financial condition was in rapid decline as well. Still,
Beehive‟s Board approved the following with no consideration regarding the timing of
these decisions or their detriment to liquidity and earnings:

        A $3 million branch expansion;

        An annual budget containing high operating costs that included new computer
         and phone systems;

        Continued operation of all nine branches; and

        Risky lending programs that included Construction Take Back8 loans.

Our review of Beehive‟s Board minutes determined neither Beehive management
nor its Board had a sense of urgency to address the Credit Union‟s deteriorating
financial position and rising delinquencies, particularly in 2007 when the economic
dislocation began and continued through 2008. In addition, Board minutes

8
 Construction Take Back loans provide funding to members who cannot obtain permanent outside financing
after completion of a project‟s construction phase.



                                                                                                         8
Material Loss Review – Beehive Credit Union
OIG-11-07



repeatedly reported a slowdown in lending and increasing delinquencies, yet we
found no associated action plan to address these issues. In 2007, management set
the construction loan concentration limit at 400 percent of capital; however, when
that limit was surpassed in August 2008 (482 percent of capital), again we found no
action plan required by the Board.

We also determined Beehive‟s Supervisory Committee was inactive. Specifically,
we found very few references to the Supervisory Committee in the Board minutes
and no minutes specific to the Supervisory Committee. In addition, we found
Beehive‟s attempted conversion to a mutual savings bank distracted management
from Beehive‟s operations. The process, which began in 2006 and ended in 2008
when the FDIC did not give their approval, was publicly acrimonious between
management and members of the Credit Union and fostered member disloyalty.

We concluded that management and the Board remained too optimistic when the
economy turned and did not actively address the serious economic issues
developing nationally, and particularly those in Utah‟s real estate market.

Inadequate Risk Management Practices

We found that Beehive management developed and maintained heavy real estate
concentrations, as shown on Chart A (below). Although examiners noted real estate
loan concentrations as a finding as far back as 2005, we determined management
did not effectively address the issue.

Chart A


                      Beehive Loan Concentrations as of 12/31/09
              Business and                                   New Vehicle
                 Other                                           7%
                   6%

        Credit Card and
          Unsecured
               2%

                                                               Used Vehicle
                    Other RE
                                                                  19%
                      20%                     1st Mortgage
                                                  46%




          Source: Beehive Credit Union Call Reports




                                                                                  9
Material Loss Review – Beehive Credit Union
OIG-11-07



For comparison purposes, the peer group concentration average for first mortgages,
which includes construction loans, was 31 percent, significantly lower than Beehive‟s
concentration average of 46 percent.

We determined Beehive‟s real estate loan portfolio was heavily weighted with
construction and lot loans, most of which were made in 2006 and 2007, making
Beehive particularly vulnerable to changing property values. In addition, median
home prices in the Salt Lake City area declined nearly 50 percent9 from April 2007 to
December 2010, leading to significant losses on real estate loans. The problem of
rising delinquencies related to these loans accelerated when Beehive ceased
making construction loans but began to take back real estate construction loans in
late 2008. The Construction Take Back (CTB) loan product was inherently high-risk
because it provided funding primarily to members who could not obtain permanent
outside financing after the construction phase of the project was completed. Chart B
(below) details the components of Beehive‟s loan portfolio and demonstrates the
growth of CTB loans when construction lending stopped.

Chart B


          (in 000's)                    Beehive Loan Detail
           $120,000
           $100,000
            $80,000
            $60,000
            $40,000
            $20,000
                 $-
                              Dec-07               Dec-08                Dec-09                Jun-10

               HELOC Loans     Construction Take Back       Other Real Estate   Construction     Lot loans

        Source: NCUA Examinations and Regional Summary


We determined Beehive management did not effectively plan, manage, or control
liquidity risk. Specifically, management allowed real estate concentrations to rise to
over 66 percent of total loans, with most loans at fixed rates. Management also
allowed high-cost nonmember deposits to rise to 18 percent of total deposits. In
addition, Beehive management used two funding sources secured by Beehive‟s
assets to provide quick liquidity. We determined management did not fully
understand these lines of credit were “non-committed”, which meant they could be

9
    Source: www.housingtracker.net/asking-prices/salt-lake-city-utah/




                                                                                                             10
Material Loss Review – Beehive Credit Union
OIG-11-07



suspended if Beehive‟s financial condition deteriorated and would not be available
when most needed, thus increasing Beehive‟s liquidity risk exposure.

Examiners noted Beehive management‟s inadequate risk management practices
related to underwriting in the 2008 Examination Report. Findings included unsigned
tax returns, the lack of sufficient employment and income verification to demonstrate
repayment ability, inadequate lot loan documentation, and unsupported property
valuations. Examiners also discovered underwriting irregularities, such as “For Sale”
signs on property during construction of owner occupied homes.

Other risk management issues noted by examiners in the 2005, 2008, and 2009
exams included:

      Beehive‟s Member Business Lending (MBL) policy, approved in June 2005,
       did not specify maximum exposure in relation to net worth, or the elements of
       the debt service coverage ratio, as required by NCUA Rules and Regulations
       Part 723, Member Business Lending. Examiners recommended revising this
       policy in the December 2005 examination to comply with the regulation,
       however, there is no evidence in the minutes to indicate that management or
       the Board took action to change the policy.

      Brokered loans were the main source of Beehive‟s construction and lot loans
       as of September 2008. Examiners raised concerns about the use of out-of-
       area appraisers unfamiliar with the local markets, and insider relationships
       between broker, borrower, builder, seller, appraiser, and/or others connected
       with these loans.

      The September 2009 examination‟s Document of Resolution (DOR) required
       management to submit a Net Worth Restoration Plan (NWRP). The NCUA
       twice rejected management‟s NWRP, the first time in November 2009 and the
       second time in March 2010, because of unrealistic underlying assumptions
       and projections. We believe management‟s inability to produce a
       comprehensive NWRP further demonstrates that management did not have a
       clear understanding of the risk management process.

Inaccurate Financial Reporting

We determined management did not accurately report financial data on its Call
Reports. Specifically, management used a flawed methodology to calculate and
fund the ALLL. As a result, management masked the true financial health of
Beehive, which became a critical issue when the economy and real estate market
values began their steep decline.

We found examiners repeatedly questioned the methodology used to calculate the
ALLL and twice-required additional reserves – $953K in September 2008 due to


                                                                                     11
Material Loss Review – Beehive Credit Union
OIG-11-07



construction and lot loan impairments, and $1.1M in July 2009. Examiners noted
management adjusted the ALLL account after examiners had calculated the
adjustment, rather than calculate it themselves, and did not demonstrate an
understanding of how to revise the methodology to reflect the changing economic
environment.

We also determined Beehive management did not monitor delinquencies in a timely
manner, which caused the ALLL calculation to be inaccurate in the credit union‟s
Call Reports. For example, the July 2009 examination noted there were 35 loans in
excess of 180 days delinquent with only one loan charged off, a violation of
Beehive‟s own ALLL policy. We believe the lack of appropriately aging loans
masked the inherent risk of the loan portfolio, and resulted in the underfunding of the
ALLL. The September 2009 DOR required management to develop a credit risk
management program that would identify, measure, monitor, report, and control loan
portfolio risks, as well as measure and report on performance and risks.
Management did not fully implement this program.




                                                                                    12
Material Loss Review – Beehive Credit Union
OIG-11-07



B. NCUA and Utah Department of Financial Institutions Supervision of
   Beehive Credit Union

                          We determined a contributing factor in the failure of
     Examiners Could
                          Beehive was examiners‟ untimely supervision during a
     Have Mitigated the
                          critical period. Specifically, Beehive was not subject to
     Loss to the NCUSIF
                          an onsite examination by either the Utah SSA or the
                          NCUA from March 2006 to November 2008, a 32-month
period, at a time when management‟s decisions had begun to show dangerous
trends and emerging risks. As a result, examiners missed opportunities to slow or
stop management‟s risky lending practices, which would have likely mitigated the
loss to the NCUSIF.

Table 1 (below), provides detailed examination results showing the decline of
Beehive, which deteriorated markedly, as did the economy, both nationally and in
the state of Utah.

Table 1: Examination Results

 Examination                          CAMEL          Cap/
                          Exam                                 Asset
 Effective Dates               10      NCUA           Net                 Mgmt     Earnings      Liquidity
                          Type                                 Quality
                                     Composite       Worth
 June 2004                  11            2            2          2         2           3            2
 December 2005              26            2            1          1         2           2            2
 September 2008             26            3            2          3         2           3            2
 June 2009                  23            3            2          3         2           3            2
 September 2009             23            4            4          4         4           4            3
 December 2009              11            5            5          5         5           5            4
 June 2010                  23            5            5          5         5           5            4

We questioned officials from the NCUA and Utah SSA about the 32-month gap in
supervision. Officials explained the gap as follows:

         Beehive was pursuing a charter conversion to a mutual savings bank, which
          would not be under NCUA jurisdiction.

         NCUA examiners considered Beehive low risk, historically rated Composite
          CAMEL 2, and looked to the Utah SSA to perform the examination.

         The Utah SSA believed that because the FDIC was conducting its own
          examination procedures related to the charter conversion in 2007, another
          examination was not necessary.

10
   Exam Type 11 is a full scope exam for FISCUs; Exam Type 23 is an on- site supervision, and Exam Type 26 is
a report review.



                                                                                                         13
Material Loss Review – Beehive Credit Union
OIG-11-07



The Utah SSA led the examinations with effective dates of June 2004 through June
2009, and issued the reports. NCUA examiners reviewed the reports and concurred
with the assigned CAMEL ratings. Both the Utah SSA and NCUA consistently rated
Beehive a Composite CAMEL 2 through 2005. During the September 2008
examination, examiners determined alarming trends had begun to develop. Beehive
quickly deteriorated from a Composite CAMEL 3 to a Composite CAMEL 5 in the
following 15 months. In November 2009, the NCUA transferred Beehive to Region
V‟s Division of Special Actions.

Despite rating Beehive a Composite CAMEL 2 for both the June 2004 and
December 2005 examinations, examiners called for improved accounting and
reconciliation procedures, and raised concerns about loan documentation, auto and
construction loan concentrations, and MBL loan regulatory compliance. We found
no effective follow-up on these concerns as evidenced by the fact that these same
issues were still present when Beehive failed.

The September 2008 examination resulted in a Composite CAMEL 3 rating, and
examiners noted dangerous trends emerging in critical areas, including asset quality,
concentrations in construction and lot loans (repeat from December 2005
examination), capital, and ALLL methodology. This examination also resulted in a
DOR requiring concentration limits and additions to the ALLL reserves. We believe,
given the significance of these concerns in the aggregate, and the deteriorating
economy (both nationally and in Utah), as well as the repeat finding related to
concentrations, an informal enforcement action such as a Memorandum of
Understanding and more frequent supervisory contact would have been the
appropriate action for examiners to take.

The June 2009 examination resulted in a downgrade to Beehive‟s Composite
CAMEL rating to a 4. NCUA examiners issued a DOR after the September 2009
examination that specified Beehive management take the following actions:

      Develop and approve an ALLL funding and charge-off policy;

      Obtain appraisals on all real estate transactions;

      Cease loan modifications until a policy and appropriate procedures were
       developed; and

      Create a Net Worth Restoration Plan.

We believe the scope and severity of the issues raised in this September 2009 DOR
further indicate that the Utah SSA and NCUA needed to take stronger supervisory
action after the September 2008 examination.




                                                                                  14
Material Loss Review – Beehive Credit Union
OIG-11-07



By the December 2009 (Effective) joint examination, Beehive deteriorated to a
Composite CAMEL 5 rating and the Utah SSA and NCUA jointly issued an MOU. In
July 2010, examiners concluded Beehive was „significantly undercapitalized‟, most
likely moving towards becoming „critically undercapitalized‟ and issued a Preliminary
Warning Letter to cease certain lending activities in an effort to prevent further
losses. The NCUA liquidated Beehive in December 2010.

Ultimately, we believe the 32-month gap in supervisory contact between March 2006
and November 2008, prevented examiners from detecting early warning signs in the
overall financial strength of Beehive. This lapse in supervisory oversight proved to
be at a very critical time. As previously mentioned, the examination of federally
insured state-chartered credit unions properly belongs to and is the primary
responsibility of SSAs. Historically, NCUA agreements with each SSA provide for
examinations to be completed within 18 months and NCUA monitors the time
elapsed for SSA examinations in relation to the desired 18-month frequency limit.
We believe had the time between examinations been closer to the typical 18-month
cycle, Beehive management‟s risky lending practices could have been curtailed and
the losses could have been mitigated.

Recommendation

As previously noted in the Background section of this report, in November 2008, the
NCUA adopted changes to its risk-based examination scheduling policy, creating the
Annual (12-Month) Examination Scheduling Program to be phased in from 2009
through 2011. The Annual (12-month) program, as it name suggests, changed the
requirements for examinations or material on-site supervision contacts to annually,
or as close to annually as can be scheduled. The annual schedule applies to all
FCUs and to those FISCUs with assets greater than $250 million, and allows for
additional contacts if warranted by risk profiles or negative trends.

We believe this change in examination scheduling was important not only because it
shortened the timetable between examinations, but also because it brought to light
the importance of regularly scheduled supervisory contacts. As a result, this
program should help prevent the type of supervision gap that occurred with Beehive
from occurring in the future. Therefore, we are making no formal recommendations
to NCUA management at this time.




                                                                                   15
Material Loss Review – Beehive Credit Union
OIG-11-07



APPENDIX A

Management Response




                                              16
